              U.S. Department of Energy
              Office of Inspector General
              Office of Audits and Inspections




Audit Report
Sandia National Laboratories'
Readiness in Technical Base and
Facilities Program




OAS-L-13-13                    September 2013
                                 Department of Energy
                                     Washington, DC 20585

                                       September 5, 2013


MEMORANDUM FOR THE MANAGER, SANDIA FIELD OFFICE



FROM:                    David Sedillo, Director
                         Western Audits Division
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Sandia National Laboratories'
                         Readiness in Technical Base and Facilities Program"

BACKGROUND

The Department of Energy's (Department) Sandia National Laboratories (Sandia) is a
Government-owned, contractor operated Laboratory that is part of the National Nuclear Security
Administration's (NNSA) nuclear weapons complex. One of Sandia's key missions is to ensure
the safety, reliability and performance of the Nation's nuclear weapons stockpile. To accomplish
this mission, Sandia provides research, development, and testing services, and manufactures
specialized non-nuclear products and components. Through NNSA's Readiness in Technical
Base and Facilities (RTBF) Program, Sandia maintains facilities and infrastructure equipped with
advanced scientific and technical tools to support NNSA's operational and mission requirements.
NNSA's Sandia Field Office is responsible for overseeing Sandia's operations.

A key aspect of Sandia's RTBF is the Operations of Facilities Subprogram (Subprogram), which
provides support to 31 of Sandia's 41 mission critical facilities. Funding for the Subprogram,
which totaled $139.3 million of Sandia's $165.5 million Fiscal Year 2013 RTBF budget, is
intended to sustain specific nuclear weapons' Mission Critical Capabilities (Capabilities)
essential to performing national security missions in a readiness state to execute missions, such
as the nuclear weapons Life Extension Programs (LEPs). The Subprogram budget also supports
nuclear weapons programmatic infrastructure requirements such as general plant projects and
capital equipment.

Given the importance of Sandia's mission critical facilities and infrastructure to nuclear weapons
work, we initiated this audit to determine whether Sandia's RTBF Subprogram was effectively
supporting LEP mission needs.

RESULTS OF AUDIT

Nothing came to our attention to indicate that Sandia's RTBF Subprogram was not effectively
supporting LEP mission needs. Specifically, our review disclosed that Sandia met or exceeded
its RTBF program goals for FY 2012. In addition, we noted that Subprogram officials
implemented performance monitoring controls. For example, Subprogram officials held weekly
meetings with Capabilities officials and performed quarterly management reviews to monitor
performance, allowing Subprogram management to remain current on emerging issues and
manage upcoming risks. Subprogram and Capabilities management also prioritized capital
investments and management plans to mitigate risks, such as the needed recapitalization of aging
and unsupported tools.

The Subprogram is facing challenges as it strives to meet the production and testing needs
required for LEPs. For example, according to Sandia officials, budget constraints have
impacted the Subprogram's ability to maintain staffing levels, equipment needs, and major
recapitalization projects for the Capabilities. According to Subprogram officials, current
funding levels will likely not be sufficient to sustain the present operations level in the future.
The Subprogram and NNSA are aware of these challenges and are considering how best to
address them.

                         Performance Measures and Monitoring Controls

The Field Office provides feedback to Sandia on its development of an annual RTBF execution
plan and monitors the accomplishment of proposed goals and milestones identified in the plan.
According to NNSA, Sandia met or exceeded its RTBF Subprogram performance goals.
Specifically, according to the Field Office's FY 2012 Performance Evaluation Report, Sandia
met or exceeded expectations, resulting in an "excellent" rating for one Performance Based
Incentive. For example, NNSA reported that Sandia was successful in replacing certain high
risk equipment needed to support the LEPs. In addition, NNSA reported that the Subprogram
provided essential support to the Capabilities and the facilities and infrastructure work that
directly supported the mission needs. The Field Office noted that Sandia carried out an
unprecedented amount of activity, especially in light of a large number of experienced
employee retirements that occurred during calendar year 2011.

Sandia implemented performance monitoring controls for the Subprogram. Specifically,
Subprogram officials utilized performance monitoring controls that included multiple levels of
review that allowed them to remain up-to-date on issues and manage emerging risks. The
reviews also allowed the various Capabilities managers to interact and collaborate on issues with
Subprogram officials. For example, Subprogram management met weekly with the Field Office,
Sandia's Nuclear Weapon Strategic Management Unit, and the various Capabilities. Subprogram
officials also participated in monthly senior manager team meetings and quarterly management
reviews that included the Field Office to discuss and review project, strategic area, and program
integration deliverables.

                       Prioritization of Investments and Management Plans

According to Sandia officials, the Subprogram works with Capabilities to establish funding
priorities based on risk. For example, the Subprogram has made funding the Microsystems and
Engineering Sciences Applications Silicon Fabrication Facility (SiFab) recapitalization project
its foremost priority. The project aims to upgrade the SiFab, a facility for manufacturing
integrated circuits that dates back to the late 1980s. Many of the critical tools are well past the


                                                  2
design lifetime and are no longer supported by manufacturers, which presents a risk to the
current LEP efforts. To mitigate this risk and minimize the project's impact, the management
plan is designed to maintain the LEP production schedules with minimum disruptions. For
example, in FY 2010, the Subprogram identified a risk that the sole supplier of silicon wafers
used at SiFab, would discontinue the production of the wafers. In April 2013, the supplier
notified Sandia that it planned to discontinue production at the end of 2013. To address this
issue, the Subprogram collaborated with other nuclear weapon programs at Sandia to identify
funding sources to purchase enough wafers to meet LEP requirements until the recapitalization
project is completed in FY 2018. According to the Field Office, NNSA has reviewed and
approved the purchase request for the wafers and the first delivery is scheduled for September
2013.

                                     Subprogram Challenges

The Subprogram support of production and testing for the LEPs is facing significant challenges.
For example, according to Subprogram officials, budget constraints are impacting Sandia's
ability to begin the Micro Fabrication facility (MicroFab) tooling recapitalization project in FY
2013. The project will update the MicroFab from a primarily research and development facility
to a production facility able to support the LEPs. The Field Office is working with Sandia to
meet this challenge by looking for additional funds in the FY 2014 budget for the
recapitalization project. In addition, Sandia has identified that the simultaneous execution of the
B61 LEP and W88 Alteration at the outset of multi-system stockpile modernization efforts will
impact production and testing schedules for the RTBF Capabilities.

PATH FORWARD

Because we did not identify concerns with NNSA's and Sandia's management of the
Subprogram, we are not proposing any recommendations. However, we encourage NNSA to
continue monitoring the Subprogram as LEP work progresses to ensure success in completing
LEP objectives.

Attachment

cc: Deputy Secretary
    Acting Administrator, National Nuclear Security Administration
    Chief of Staff




                                                 3
                                                                                        Attachment

                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The audit objective was to determine whether Sandia National Laboratories' (Sandia) Readiness
in Technical Base and Facilities Operations of Facilities Subprogram (Subprogram) was
effectively supporting Life Extension Programs mission needs.

SCOPE

The audit was performed between November 2012 and August 2013. We conducted the audit at
Sandia and the National Nuclear Security Administration's Sandia Field Office, located in
Albuquerque, New Mexico.

METHODOLOGY

To accomplish the audit objective, we:

   •   Reviewed applicable laws, regulations, policies and procedures relevant to the
       Subprogram at Sandia;

   •   Held discussions with Field Office and Sandia officials;

   •   Reviewed related reports on Sandia's Operations of Facilities and associated performance
       measures;

   •   Assessed the Mission Critical Capabilities, including staffing, maintenance and capital
       equipment purchases of four programmatic areas with mission critical facilities; and

   •   Reviewed general plant projects funded by the Subprogram.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objective. The audit included tests of controls and
compliance with laws and regulations to the extent necessary to satisfy the audit objective. In
particular, we assessed the Department's implementation of the GPRA Modernization Act of
2010 and concluded that the Department had established performance measures for managing the
Operations of Facilities Subprogram. Because our review was limited, it would not necessarily
have disclosed all internal control deficiencies that may have existed at the time of our audit. We
did not rely on computer-processed date to satisfy our objective. Management waived an exit
conference.


                                                4
                                                                    IG Report No. OAS-L-13-13


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page

                                       http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
